Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     STATE STANDARDS AND 

   PRACTICES FOR CONTENT OF 

    CASEWORKER VISITS WITH 

   CHILDREN IN FOSTER CARE





                    Daniel R. Levinson 

                     Inspector General 


                      December 2005

                     OEI-04-03-00351

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
  Δ         E X E C U T I V E                            S U M M A R Y                              



                      OBJECTIVE
                      To determine (1) the written standards States have implemented for the
                      content of caseworker visits with children in foster care and (2) the
                      practices of States without written standards.


                      BACKGROUND
                      Caseworker visits are a critical element in maintaining the safety and
                      well-being of children in foster care. There are no Federal requirements
                      regarding specific activities that caseworkers must perform during
                      visits with children in foster care. However, the Administration for
                      Children and Families (ACF) reviews caseworker visits as part of its
                      Child and Family Service Reviews (CFSRs). ACF reviewed all
                      50 States, the District of Columbia, and Puerto Rico between 2001 and
                      2004. During CFSRs, ACF determines, for approximately 50 cases per
                      State, whether the frequency of caseworker visits with children was
                      sufficient to ensure adequate monitoring of the child’s safety and well
                      being and whether visits were focused on issues pertinent to case
                      planning, service delivery, and goal attainment. States are either given
                      a positive assessment (a strength rating) if visits were of sufficient
                      frequency and content or are assessed as needing improvement. ACF
                      reported that a strength rating for caseworker visits is associated with
                      positive outcomes of achieving permanency and ensuring child safety.

                      ACF summarized the results of all States receiving CFSRs, and
                      included additional information for the 35 CFSRs that were completed
                      during 2002 through 2004. For these 35 States, the ACF summary
                      included details about caseworker visitation for the child welfare cases
                      reviewed, which included both children in foster care and those
                      receiving in-home services. Fourteen of the 35 States were cited as
                      needing improvement in the content of caseworker visits.

                      The difference between the CFSRs and this evaluation is that the
                      CFSRs include a detailed review of approximately 50 child welfare cases
                      per State (a combination of foster care cases and those receiving
                      in-home services), whereas OIG’s evaluation focused exclusively on
                      State standards for children in foster care. OIG’s report provides an
                      analysis of States’ written standards for the content of visits, as well as
                      reported content activities for States without written standards.




OEI-04-03-00351    S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                   CARE                                                                                                              i
    E X E C U T I V E                    S U          M M A R Y


                     ACF also funded a caseworker training initiative by the National
                     Resource Center for Family Centered Practice and Permanency
                     Planning in 2004; the resulting training materials state that caseworker
                     visits are “. . . not a friendly visit or an opportunity to chat about how
                     the kids are doing.” Instead, visits should be well planned and focused
                     on children’s safety and well-being, as well as permanency.

                     At the beginning of our evaluation in 2004, ACF staff requested that we
                     review the standards and practices related to the content of caseworker
                     visits, emphasizing that the value of frequent caseworker visits is
                     greatly diminished if visits do not focus on substantive content issues.
                     The information in this report should enhance ACF’s oversight of State
                     foster care programs related to the content of caseworker visitation. We
                     define the content of caseworker visits as specific activities that
                     caseworkers perform during visits with children in foster care. These
                     activities include observations and assessments to help ensure the
                     safety and well-being of children for whom care is provided.

                     This report is the second in a series of three reports about caseworker
                     visits with children in foster care. In the first report, “State Standards
                     and Capacity to Track Frequency of Caseworker Visits with Children in
                     Foster Care,” OEI-04-03-00350, OIG examined standards States have
                     established related to the frequency of caseworker visits. The third
                     report in the series, “Compendium of State Standards: Content of
                     Caseworker Visits With Children in Foster Care,” OEI-04-03-00353,
                     provides State written standards guiding the content of caseworker
                     visits with children in foster care. The compendium includes standards
                     provided by 38 States.

                     A primary component of this evaluation was a document review of
                     States’ written standards regarding the content of caseworker visits
                     with children in foster care. Another key component, for States without
                     written standards, was analysis of State-reported activities typically
                     performed during visits. We collected information from all 50 States
                     and the District of Columbia (referred to as 51 States throughout this
                     report). Our data collection, conducted during February through July
                     2004, consisted of an e-mail data collection instrument and a structured
                     telephone interview with each State’s child welfare program officials.




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              ii
    E X E C U T I V E                    S U          M M A R Y 





                     FINDINGS
                     Forty-one out of fifty-one States reported implementing statewide
                     written standards for the content of caseworker visits with children
                     in foster care. Thirty-eight of these States had written standards
                     specific to caseworker visits. The most commonly cited activities
                     recommended in the standards were related to building relationships
                     and/or communication between the child and caseworker, and
                     addressing the needs of and services for the child. Three of the forty-
                     one States reported having written documents addressing the content of
                     caseworker visits, but as part of broader program areas such as case
                     planning and family service plans. Since these documents were not
                     specific to caseworker visits, we did not analyze them.
                     Of the 10 States without written standards, 8 of the States reported
                     the types of activities typically performed during caseworker visits.
                     Generally, the activities reported by the eight States were similar to
                     those of States with written standards. Three of the most commonly
                     cited categories of activities were adjustment to the foster care
                     placement, child safety, and physical health of the child. The remaining
                     two States reported that visitation activities either depended on the
                     case or were determined by local policy. The 10 States reported various
                     reasons for not having content standards. For example, three States
                     reported that they were exploring development of content standards or
                     guidelines, or use of a “contact sheet” or checklist.


                     CONCLUSION
                     Caseworker visitation with children in foster care is a critical element
                     for ensuring child safety and well-being. Through its oversight of the
                     foster care program, ACF has underscored the importance of
                     substantive content during caseworker visitation. The information in
                     our report has never been provided on a national level before our
                     evaluation. We hope it will be useful to ACF in its review of State
                     activities and to the States as they carry out and consider ways to
                     improve their own foster care programs.




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              iii
Δ   T A B L E            O F            C O N T E N T S                                   




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 8

                     States with written content standards. . . . . . . . . . . . . . . . . . . . . . . 8 


                     States without written content standards . . . . . . . . . . . . . . . . . . 10 


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                     Appendix A: Categories and Definitions for Content of Visits . . 16 


                     Appendix B: Content Categories for States With Written 

                     Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                     Appendix C: Content Categories Reported by States Without 

                     Written Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

  Δ         I N T R O D U C T I O N                                       



                      OBJECTIVE
                      To determine (1) the written standards States have implemented for the
                      content of caseworker visits with children in foster care and (2) the
                      practices of States without written standards.


                      BACKGROUND
                      Caseworker visits are a critical element in maintaining the safety and
                      well-being of children in foster care. There are no Federal requirements
                      regarding specific activities that caseworkers must perform during visits
                      with children in foster care. However, the Administration for Children
                      and Families (ACF) reviews caseworker visits as part of its Child and
                      Family Service Reviews (CFSRs). ACF reviewed all 50 States, the
                      District of Columbia, and Puerto Rico between 2001 and 2004. During
                      CFSRs, ACF determines, for approximately 50 cases per State, whether
                      the frequency of caseworker visits with children was sufficient to ensure
                      adequate monitoring of their safety and well-being and whether visits
                      focused on issues pertinent to case planning, service delivery, and goal
                      attainment. States are either given a positive assessment (a strength
                      rating) if visits were of sufficient frequency and content or are assessed as
                      needing improvement. ACF reported that a strength rating for
                      caseworker visits is associated with positive outcomes of achieving
                      permanency and ensuring child safety.

                      ACF summarized the results of all States receiving CFSRs, and included
                      additional information for the 35 CFSRs that were completed during 2002
                      through 2004. For these 35 States, the ACF summary included details
                      about caseworker visitation for the child welfare cases reviewed, which
                      included both children in foster care and those receiving in-home services.
                      Fourteen States were cited as needing improvement in the content of
                      caseworker visits.1
                      The difference between the CFSRs and this evaluation is that the CFSRs
                      include a detailed review of approximately 50 child welfare cases per
                      State (a combination of foster care cases and those receiving in-home
                      services), whereas OIG’s evaluation focused exclusively on State
                      standards for children in foster care. OIG’s report provides an analysis of
                      States’ written standards for the content of visits, as well as reported
                      content activities for States without standards.




OEI-04-03-00351    S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                   CARE                                                                                                              1
    I N T R O D 
U C T               I O N


                     ACF also funded a 2004 initiative by the National Resource Center for
                     Family Centered Practice and Permanency Planning to develop training
                     materials for States to guide the content of caseworker visits. The
                     training materials state that caseworker visitation is “. . . not a friendly
                     visit or an opportunity to chat about how the kids are doing.” Instead, the
                     visit should be well planned, purposeful, and focused on children’s safety
                     and well-being, as well as permanency.

                     At the beginning of our evaluation in 2004, ACF staff requested that we
                     review the standards and practices related to the content of caseworker
                     visits, emphasizing that the value of visits is greatly diminished if they do
                     not focus on substantive content issues. The information in this report
                     should enhance ACF’s oversight of State foster care programs related to
                     the content of caseworker visitation. We define the content of caseworker
                     visits as specific activities that caseworkers perform during visits with
                     children in foster care. These activities include observations and
                     assessments to help ensure the safety and well-being of children for whom
                     care is provided.
                     The Foster Care Program
                     The Title IV-E Foster Care Program is an entitlement program
                     administered by the Children’s Bureau within ACF. According to ACF,
                     foster care is defined as “twenty-four-hour substitute care for children
                     placed away from their parents or guardians and for whom the State
                     Agency has placement and care responsibility.”2 Children in foster care
                     live in a variety of placement settings, including family foster homes,
                     foster homes of relatives, group homes, emergency shelters, residential
                     facilities, child care institutions, and preadoptive homes.3
                     The Federal budget for the Foster Care program in fiscal year (FY) 2005
                     is $4.9 billion.4 The Department of Health and Human Services (HHS)
                     anticipates that it will provide funding monthly for 233,000 children
                     eligible for assistance under Title IV-E during FY 2005. States receive
                     Federal matching funds under Title IV-E for children in foster care whose
                     families meet income requirements.
                     Federal Role
                     As part of its Federal oversight role, ACF conducts reviews to assess 

                     States’ compliance with Federal requirements. These reviews include 

                     Title IV-E Eligibility reviews, Adoption and Foster Care Analysis and 

                     Reporting System reviews, Statewide Automated Child Welfare 

                     Information System reviews, and CFSRs.5 Of those reviews, only the 

                     CFSRs address the frequency and content of caseworker visits. 


OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              2
    I N T R O D 
U C T               I O N


                     Pursuant to 45 CFR §§ 1355.31-37, promulgated under section 1123A of
                     the Social Security Act (the Act), ACF conducts CFSRs to ensure
                     conformity with Federal child welfare requirements and to measure
                     compliance with State plan requirements under Titles IV-B and IV-E.
                     CFSRs are a joint Federal and State process. Three categories of child
                     welfare outcomes are reviewed: safety, permanency, and well-being. In
                     addition, the reviews address systemic factors affecting the child welfare
                     system. If States are not found to be in substantial conformity, they must
                     submit to ACF within 90 days a Program Improvement Plan (PIP)
                     outlining steps to correct deficiencies. All States not in substantial
                     conformity in the first round of CFSRs begin a full review 2 years after
                     approval of their PIP. None of the States (including the District of
                     Columbia and Puerto Rico) were in substantial conformity after the first
                     round, and therefore ACF will schedule each State’s subsequent review
                     upon State completion and ACF evaluation of the PIP.

                     As part of the CFSRs, a total of approximately 50 child welfare cases (a
                     combination of foster care cases and those receiving in-home services) are
                     reviewed in each State from selected sites.6 One of the items assessed is
                     caseworker visits with children. Each case is given either a positive
                     assessment (a strength rating) or is rated as needing improvement, and
                     the State is given an overall rating for all cases reviewed.
                     State Role
                     Although all States must comply with Federal regulations to receive
                     Federal funding, each State determines how services are provided to
                     children in foster care. The structure of foster care systems varies from
                     State to State and often varies within States. Some have State-
                     administered systems in which the State directly provides foster care
                     services to children. Other States have county-administered systems in
                     which the State retains responsibility for the safety and well-being of
                     children in foster care, while counties provide the services. Adding a
                     further layer of complexity, some State and county-administered
                     programs contract a portion of or all foster care services to private
                     agencies.

                     To be eligible for foster care payments, States must submit a plan to be
                     approved by the HHS Secretary. Section 471(a)(22) of the Act requires
                     that the plan include “standards to ensure that children in foster care
                     placements in public or private agencies are provided quality services that
                     protect the safety and health of the children.” In addition, the State plan
                     must provide for the development of a written case plan for each child and

OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              3
    I N T R O D   U C T              I O N


                     provide for a case review system (section 471(a)(16)). The case plan must
                     include steps for ensuring that the child receives safe and proper care and
                     that services are provided to the child, parents, and foster parents to
                     address the needs of the child while in foster care (section 475(1)(B)).
                     State case review systems must include procedures for ensuring that the
                     status of each child is reviewed at least every 6 months either by a court
                     or by administrative review (section 475(5)(B)).
                     Related Work
                     This report is the second in a series of three reports about caseworker
                     visits with children in foster care. In the first report, “State Standards
                     and Capacity to Track Frequency of Caseworker Visits with Children in
                     Foster Care,” OEI-04-03-00350, OIG examined standards States have
                     established related to the frequency of caseworker visits. The third report
                     in the series, “Compendium of State Standards: Content of Caseworker
                     Visits With Children in Foster Care,” OEI-04-03-00353, provides State
                     written standards guiding the content of caseworker visits with children
                     in foster care. The compendium includes standards provided by 38
                     States.
                     In addition to OIG work, the Government Accountability Office examined
                     the CFSRs in a 2004 evaluation and found that ACF and States viewed
                     the CFSRs as a valuable process. The report offered several
                     recommendations to further improve the CFSRs.7


                     METHODOLOGY
                     For the purpose of our report, we define “standards” as written
                     procedures providing guidance for caseworker visits with children in
                     foster care. Standards are included in State laws, regulations, policies,
                     and other guidance. Our primary data source was State standards for the
                     content of caseworker visits. We requested that the 50 States, the
                     District of Columbia, and Puerto Rico provide State standards for
                     caseworker visits. Puerto Rico did not respond. To gain a comprehensive
                     picture of how the content of caseworker visits was addressed, the 50
                     States and the District of Columbia (referred to as 51 States throughout
                     this report) also completed a structured data collection instrument via e-
                     mail and participated in a structured telephone interview. We also
                     interviewed organizations with expertise in child welfare and conducted
                     site visits in two States.




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              4
    I N T R O D 
U C T               I O N


                     Documentation Review, E-Mail Data Collection Instrument, and Phone 

                     Interview

                     A critical component of our data collection and analysis was our review of
                     State standards related to the content of caseworker visits.
                     States with written content standards. To determine which States had
                     content standards, we asked all 51 States, via the e-mail data collection
                     instrument, to provide any State-written content standards about
                     caseworker visits with children in foster care. We conducted a document
                     review of standards to identify specific activities that the standards
                     indicated should occur during caseworker visits.

                     We systematically grouped activities outlined in State standards into
                     categories. As we constructed our categories, we developed category
                     definitions to guide our qualitative analysis by utilizing common language
                     found in State documents. Once we defined our categories, we
                     consistently applied those definitions to the written standards and
                     categorized all States’ standards.

                     While categorizing the State standards, we identified key words or
                     phrases associated with the categories. After completing our initial phase
                     of categorization, we performed text analysis by conducting word searches
                     within State standards to ensure that the standards were categorized
                     appropriately. For example, for the safety category, we searched for the
                     following key words in State standards: safe, safety, harm, and risk. If
                     State standards included one of the identified words or phrases, we would
                     review the specific standards again to ensure that the language was
                     appropriate to the category. If the language addressed that category area,
                     then we would include that area as one of the State’s categories. Two of
                     the twenty-four activity categories were associated with assessing the
                     overall safety and well-being of children. In addition, many categories
                     addressed more specific elements of child well-being, such as physical and
                     mental health. We reported category areas found in at least two States’
                     standards. For a complete listing of the categories of activities as well as
                     the definitions we developed, see Appendix A.

                     To ensure consistency, we had two analysts with subject matter expertise
                     code the standards and come to agreement on each categorization. We
                     also had a third party (who was not involved in the study) review all of
                     our coding decisions to ensure consistent application of our definitions.
                     States without written standards. For States that did not provide written
                     content standards, we gathered two types of information. First, via our

OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              5
    I N T R O D 
U C T               I O N


                     e-mail data collection instrument, we asked States to describe content
                     activities that typically occur during caseworker visits. Because the
                     activities reported by the States without written standards corresponded
                     to the activities in the States with written standards, we categorized the
                     data using the same groupings and performed similar text analysis. In
                     addition, during our structured telephone interview, States described
                     reasons for not having written content standards. We present categories
                     reported by at least two States.

                     We developed automated databases to compile survey and documentation
                     information collected from States. We aggregated the data based on State
                     responses using qualitative analysis to derive our results.

                     Our data collection instruments and interviews were completed between
                     February and July 2004. When State information was incomplete, we
                     continued to follow up with States throughout the fall of 2004. We
                     confirmed with all States that we received and analyzed the correct
                     written standards. The information presented in this report represents
                     standards in effect between February and July 2004.
                     Interviews With Organizations and Site Visits to States
                     To gain a richer understanding of how caseworker visits are addressed in
                     States, we interviewed organizations and conducted site visits in two
                     States prior to designing our evaluation. The organizations included:
                     Chapin Hall, the Center for Law and Social Policy, Children’s Defense
                     Fund, Children’s Rights, Inc., Child Welfare League of America, the
                     Heritage Foundation, and the Urban Institute. In addition, we visited
                     one predominately urban State and one State that was more rural
                     (Florida and Kentucky) to: examine foster care records and determine the
                     format in which caseworker visits were recorded, interview State and
                     local administrators, conduct a focus group with foster parents (Kentucky
                     only), interview caseworkers, collect State regulations and policies
                     regarding caseworker visits, and review computer data systems. We also
                     solicited input from ACF staff.
                     Limitations
                     Our content analysis was systematic in developing specific categories with
                     definitions for each category to guide our analysis. However, by its very
                     nature, content analysis requires judgment in the selection and definition
                     of categories. We made such judgments based on our expertise in the
                     subject matter and our careful examination of the State data. Once we
                     made these judgments, we took steps to consistently apply the criteria we


OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              6
    I N T R O D 
U C T               I O N


                     had developed. However, others could have made different judgments on
                     the selection and definition of categories.

                     We selected standards specifically related to caseworker visits with
                     children in foster care as our area of analysis because visits between
                     caseworkers and children are a critical element in maintaining child
                     safety and well-being. However, we recognize that visitation with
                     children is one of many factors in the complex child welfare system that
                     may affect child safety. We analyzed only those documents specifically
                     related to caseworker visits with children in foster care. A few States’
                     documents pertained to program areas such as case planning and family
                     service plans (not specific to caseworker visits). However, we did not
                     review these documents because they did not specifically address visits
                     with children, and therefore were outside the scope of our evaluation.
                     Similarly, some States submitted documents related to caseworker visits
                     with the foster caregiver, in addition to those related to visits with
                     children. Although documents specific to caseworker visits with foster
                     care providers could outline activities similar to those related to visits
                     with children, this was not the focus of our review, and therefore these
                     documents were not included in our analysis.

                     Our review focused exclusively on standards and related information from
                     the State level. We did not examine standards from local or county levels
                     of State child welfare systems, nor did we examine standards that private
                     agencies may have in place. We did not review States’ performance
                     relative to their content standards, nor did we assess the quality of those
                     standards. We recognize that States may be performing other activities
                     that were not outlined in written standards. However, since our
                     evaluation focused on documented standards, we did not ask States with
                     written content standards if there were any other content activities
                     typically performed by caseworkers in addition to their standards.
                     Additionally, we did not examine how States without written standards
                     conveyed expected content activities to caseworkers (e.g., caseworker
                     training).
                     Standards
                     We conducted this inspection in accordance with the “Quality Standards
                     for Inspections” issued by the President’s Council on Integrity and
                     Efficiency and the Executive Council on Integrity and Efficiency.




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              7
  Δ         F I N D I N G S 




          Forty-one States reported implementing              There are no Federal standards
     statewide written standards for the content of           regarding specific activities that
      caseworker visits with children in foster care          caseworkers must perform during
                                                              visits with children in foster care.
                        However, 41 out of 51 States reported implementing standards
                        addressing the content of caseworker visits at the State level. Thirty-
                        eight of these States had written standards specific to caseworker visits.
                        Three of the forty-one States reported having written documents
                        addressing the content of caseworker visits, but as a part of broader
                        program areas such as case planning and family service plans.
                        Thirty-eight of the forty-one States had implemented written standards
                        specific to caseworker visits
                        These States had standards that specified activities that should take
                        place during caseworker visits. To emphasize the importance of content
                        of caseworker contact, one State’s standards described the content of
                        caseworker visits in this manner: “worker visits are to be of such
                        substance and duration as to promote strong assessment, help children
                        see that their well-being is a priority to the social worker, and ensure the
                        worker’s professional awareness of children’s safety and circumstances.”

                        The most commonly cited visitation activities were related to
                        relationships and/or communication between the caseworker and the
                        child, and caseworkers’ addressing the needs of and services to the child.
                        States addressed relationships and/or communication with the child in a
                        variety of ways. One State’s standards detailed that caseworkers must
                        “develop and maintain a good working relationship with the child,” while
                        another State outlined that caseworkers should have open, age-
                        appropriate communication with the child during visits. States often
                        addressed needs of and services to the child in similar ways. For
                        example, one State’s standards directed caseworkers to “assess the
                        effectiveness of services provided to meet the child’s needs.”

                        In addition to relationships and/or communication with the child and
                        needs of and services to the child, other categories of visitation activities
                        were commonly found in State standards. What follows are the most
                        common categories and excerpts from State standards to illustrate how
                        States address these activities:
                        o 	 Safety of the child: Maintains monthly face-to-face contact with
                                each foster child for the purpose of assessing appropriateness and

OEI-04-03-00351      S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                     CARE                                                                                                              8
    F 	I N D I N G     S


                             safety of the placement, including the monitoring of questionable
                             illness, incidents, or injuries.
                     o 	 Case planning: The worker should assess and document whether or
                             not . . . [the] child, if of appropriate age, [is] actively participating in
                             case planning; there are effective services in place to address areas
                             of need outlined in the case plan agreement . . . or, if there is lack of
                             progress, identification of specific barriers that are impeding
                             progress.
                     o 	 Physical health of the child: Determine the extent to which the
                             child’s . . . medical . . . needs are being met.
                     o 	 Private discussion with the child: All contacts with a child (age
                             three and older) should include an opportunity to meet privately
                             with the child out of the presence of the foster parent or facility staff
                             person. This “private time” allows the child to more openly share
                             any concerns . . . as well as to discuss the treatment and care the
                             child is receiving.
                     o 	 Adjustment of the child to the foster care placement: Face-to-face
                             visits shall be made as frequently as is necessary to assure the
                             child’s adjustment to the placement.
                     o 	 Addressing the child’s concerns: Address the child’s concerns,
                             including issues of separation and loss as well as any other issues.
                     o 	 Progress of the child: The child’s worker must regularly see the
                             child in person to assess the child’s progress . . .
                     o 	 Mental health needs of the child: Arrange for . . . services including,
                             but not limited to . . . psychiatric [or] psychological services . . .
                     o 	 Educational needs of the child: Assess and monitor the care the
                             child receives, including the child’s . . . education progress.
                     o 	 Child’s relationships or visits with parents, siblings, and other
                             relatives: The assigned worker will inquire about the frequency,
                             duration, and any issues related to parent and sibling visitation
                             [with the child].
                     o 	 Well-being of the child: During the interview with children, the
                             worker shall seek to determine . . . whether [the child’s] safety and
                             well-being needs are being met.

                     Appendix A describes how we categorized State content standards. In
                     Appendix B, Table 1 lists the most commonly cited content categories and

OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              9
    F 	I N D I N G         S


                         which States’ standards are included in these categories. Appendix B,
                         Table 2, lists additional, less common categories and the States with
                         these categories.
                         Three of the forty-one States reported having written documents addressing
                         the content of caseworker visits as part of broader program areas
                         The remaining three States—Florida, Michigan, and New Hampshire—
                         reported that they had documents addressing content. However, these
                         States addressed content as a part of documents related to broader areas
                         such as case planning and family service plans. Case planning and
                         service planning documents may address similar areas found in
                         standards specific to visitation. For example, in Michigan, the service
                         plan directs caseworkers to describe the current status of the child
                         (e.g., significant events since the last assessment, relevant medical/dental
                         and optical information). However, since these documents were not
                         specific to caseworker visits, we did not analyze this information, and
                         Florida, Michigan, and New Hampshire are not included in the tables in
                         Appendixes B and C.


                                                                Ten States did not provide written
         Of the 10 States without written standards,
                                                                content standards for caseworker
       8 of the States reported the types of activities
                                                                visits with children in foster care.
       typically performed during caseworker visits             However, 8 of these 10 States
                         reported that caseworkers performed certain activities routinely during
                         visits with children. These eight States reported performing activities
                         generally similar to those of States with written standards. The three
                         most common activity categories were related to adjustment to the foster
                         care placement, child safety, and physical health of the child. For
                         adjustment to the foster care placement, States most often reported that
                         caseworkers should discuss with the child how he/she is adjusting or if
                         there are any problems in the placement. For the other two most common
                         categories, States reported that caseworkers should assess safety during
                         visits and observe or assess the physical health of the child.

                         In addition to adjustment to the foster care placement, child safety, and
                         the physical health of the child, other areas of activity were commonly
                         reported by States. What follows are excerpts of the remaining most
                         common categories:
                         o 	 Educational needs of the child: During contact with children,
                                 caseworkers may discuss with the child how the child is doing . . . in
                                 school.

OEI-04-03-00351       S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                      CARE                                                                                                              10
    F 	I N D I N G     S


                     o 	 Addressing the child’s concerns: The worker speaks with the child
                             and inquires as to any problems in the placement, school, or other
                             aspects of the child’s life. They then document any observations,
                             problems, or concerns found.
                     o 	 Relationships and/or communication between caseworker and the
                             child: Discussion [with child] regarding progress . . .
                     o 	 Case planning: Discussion regarding progress toward case goals.

                     In Appendix C, Table 1 shows the most common categories reported by
                     States. Table 2 lists additional, less-common categories reported by the
                     States. Please refer to Appendix A for a complete listing of categories and
                     definitions.
                     Two of the ten States reported that visitation activities either depended on the
                     case or were determined by local policy
                     One State reported that content activities vary from case to case. The
                     other State reported that typical procedures are determined by local
                     department policy. However, that State reported it was drafting State
                     parameters for the content of visits.
                     The 10 States reported various reasons that they did not have written content
                     standards
                     States could report more than one reason; therefore the total number of
                     reasons is higher than 10. States gave the following reasons:
                     o 	 The State is exploring development of content standards or
                             guidelines or use of a “contact sheet” or checklist (three States);
                     o 	 Caseworkers are expected to follow best practice or conduct certain
                             activities; therefore, specific content standards are not needed (two
                             States);
                     o 	 Content is or will be addressed in the State’s CFSR PIP (three
                             States);
                     o 	 Content depends on the individual case, purpose of visit, and/or
                             similar factors (two States);
                     o 	 Caseworkers and supervisors meet and discuss the activities that
                             are expected to be performed during visits (one State); and
                     o 	 The State declined to implement standards that would impose
                             additional work on caseworkers (one State).




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              11
    R   E C O       M M E N D A T                         I O N           S
  Δ               C O N C L U S I O N                                     



                          Caseworker visitation with children in foster care is a critical element
                          for ensuring child safety and well-being. ACF staff requested that we
                          review the standards and practices related to the content of caseworker
                          visits, emphasizing that the value of visits is greatly diminished if they
                          do not focus on substantive content issues. The information in our
                          report has never been provided on a national level before our
                          evaluation. We hope it will be useful to ACF in its review of State
                          activities and to the States as they carry out and consider ways to
                          improve their own foster care programs.


                          AGENCY COMMENTS
                          In its comments to the draft report, ACF underscored the importance of
                          the content of caseworker visitation. The results of the first round of the
                          CFSRs demonstrated the strong association between the frequency and
                          quality of caseworker visitation with positive outcomes of safety,
                          permanency, and well-being. ACF stated that the findings of the OIG
                          report will be a useful tool for States working on program improvements.


                          OFFICE OF INSPECTOR GENERAL RESPONSE
                          We appreciate ACF’s comments to this report. We agree with ACF’s
                          statement that the findings of this report are an excellent companion to
                          the CFSR results, and look forward to any future program improvements
                          States implement based on this report.




OEI-04-03-00351        S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                       CARE                                                                                                              12
     Δ            A G E N C Y                      C O M M E N T S                                  





OEI-04-03-00351        S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                       CARE                                                                                                              13
    A G     E N   C Y          C O          M M E N T                      S 





OEI-04-03-00351         S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                        CARE                                                                                                              14
       Δ          E N D N O T E S                             





                         1   http://www.acf.hhs.gov/programs/cb/cwrp/results/statefindings/
                              genfindings04/index.htm, accessed November 1, 2005.

                         2   http://www.acf.hhs.gov/programs/cb/publications/cm01/appendb.htm,
                              accessed April 25, 2005.

                         3   http://www.acf.hhs.gov/programs/cb/publications/cm01/appendb.htm,
                              accessed April 25, 2005.

                         4   http://www.hhs.gov/budget/05budget/acf.html, accessed April 25, 2005.

                         5   http://www.acf.dhhs.gov/programs/olab/legislative/testimony/2004/cw_
                              testimony.htm, accessed April 25, 2005.

                         6   The cases reviewed onsite are selected from a random oversample of no
                              more than 150 foster care and 150 in-home services cases. 45 CFR
                              1355.33(c)(6). The onsite review may take place in several political
                              subdivisions of the State, but must include a State’s largest
                              metropolitan subdivision. 45 CFR 1355.33(c)(2).

                         7   http://www.gao.gov/new.items/d04333.pdf.




OEI-04-03-00351       S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                      CARE                                                                                                              15
        Δ         A P P E N D I X                              ~          A         





              Categories and Definitions for Content of Caseworker Visits


                      This appendix consists of categories and definitions of caseworker content
                      activities we developed to analyze State standards for the content of
                      caseworker visits. We developed the categories to systematically guide our
                      qualitative analysis; the categories are based on the activities found in
                      States’ written standards. They can be used as a reference for Appendix B,
                      which provides an analysis of States’ written content standards. Many of
                      the categories found in States’ standards were consistent with content
                      activities reported by States without written standards. Therefore, these
                      categories and definitions can also be used as a reference for the analysis of
                      State-reported activities from those States without standards in
                      Appendix C.

                      Relationships and/or communication between the caseworker and the child:
                      If States had language in their standards including caseworkers’
                      establishing a relationship or communicating with the child, then they were
                      included in this category.

                      Needs of and services to the child: If States had language in their
                      standards including caseworkers’ addressing the needs of or services or
                      supports for the child, then they were included in this category. This
                      category includes standards with general references to addressing child
                      needs, services, or supports. If States had only specific references to
                      particular types of needs such as safety, mental health, or physical health
                      needs, then States were not included in this category as credit for these
                      standards was given in the appropriate, more specific category(ies) (i.e.,
                      safety, mental health needs, physical health of the child).

                      Safety of the child: If States had language in their standards including
                      caseworker assessment of child safety or risk from harm, they were
                      included in this category.

                      Case planning: If States had language in their standards including
                      caseworkers’ addressing case, service, or treatment plans/goals, or progress
                      towards permanency, then they were included in this category.

                      Physical health of the child: If States had language in their standards
                      including caseworker assessment of the child’s physical, medical, or health
                      needs, then they were included in this category.

OEI-04-03-00351       S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                      CARE                                                                                                              16
    A   P   P E N D    I X ~             A


                      Private discussion with child: If States had language in their standards
                      indicating that the caseworker is to have discussions with the child alone,
                      separately, or out of the presence of the provider, then they were included
                      in this category.

                      Adjustment of the child to the foster care placement: If States had
                      language in their standards including caseworkers’ addressing whether the
                      child is adjusting specifically in the placement, then they were included in
                      this category.

                      Addressing the child’s concerns: If States had language in their standards
                      including caseworkers’ addressing the child’s concerns of any kind
                      (including those related to the placement, safety, separation, and/or
                      discipline issues), or if the child was having problems (including those in
                      the placement), then they were included in this category.

                      Progress of the child: If States had language in their standards including
                      caseworkers’ addressing general child progress, then they were included in
                      this category. If States had only specific references to particular types of
                      progress—such as progress toward mental health, educational, physical
                      health, or social needs; or progress toward case, service, treatment plans, or
                      permanency—then States were not included in this category. These
                      standards were addressed in the appropriate, more specific category(ies)
                      (e.g., case planning, mental health needs, educational needs, physical
                      health needs, social and/or emotional needs).

                      Mental health needs of the child: If States had language in their standards
                      including caseworkers’ addressing children’s mental, developmental,
                      psychological, or psychiatric health needs, then they were included in this
                      category.

                      Educational needs of the child: If States had language in their standards
                      including caseworkers’ addressing the child’s educational, academic, school,
                      or intellectual needs, then they were included in this category.

                      Child’s relationships and visits with parents, siblings, and other relatives:
                      If States had language in their standards including caseworkers’ addressing
                      the relationship or visitation between the child and parents, siblings, and
                      other relatives, then they were included in this category.

                      Well-being of the child: If States had language in their standards including
                      caseworker assessment of child well-being, then they were included in this
                      category.



OEI-04-03-00351       S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                      CARE                                                                                                              17
    A   P   P E N D    I X ~             A


                      Social and/or emotional needs of the child: If States had language in their
                      standards including caseworkers’ addressing child emotional or social
                      needs, then they were included in this category.

                      Needs of and services to the foster care provider: If States had language in
                      their standards including caseworkers’ addressing any needs, services,
                      respite, or support for the foster care provider, then they were included in
                      this category.

                      Observing interactions or relationships between the child and foster care
                      provider: If States had language in their standards including caseworkers’
                      addressing the observation of the interactions or relationships of the child
                      and foster care provider or family, then they were included in this category.

                      Addressing the foster provider’s concerns: If States had language in their
                      standards including caseworkers’ addressing any foster provider’s concerns
                      and problems (including placement or discipline problems), then they were
                      included in this category.

                      Informing the child of upcoming events: If States had language in their
                      standards including caseworkers’ informing the child of upcoming or future
                      events, then they were included in this category.

                      Adequacy of the foster care environment: If States had language in their
                      standards including caseworkers’ assessing the physical environment or
                      clothing of the child, then they were included in this category.

                      Supporting the child’s values: If States had language in their standards
                      including caseworkers’ supporting issues related to the child’s values,
                      identity, culture, and religion, then they were included in this category.

                      Child’s relationships with foster provider or foster family: If States had
                      language in their standards including caseworkers’ addressing the
                      relationship between the child and the foster provider or family, then they
                      were included in this category.

                      Developing a child’s lifebook: If States had language in their standards
                      including caseworkers’ addressing beginning or updating a lifebook with the
                      child, then they were included in this category.

                      Visual assessment of where the child sleeps: If States had language in their
                      standards including caseworker visual assessment of where the child sleeps
                      or sleeping arrangements, then they were included in this category.




OEI-04-03-00351       S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                      CARE                                                                                                              18
                  Changes in household composition: If States had language in their
                  standards including caseworkers’ addressing changes in household
                  composition or changes in the family system, then they were included in
                  this category.




OEI-04-03-00351   S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                  CARE                                                                                                              19
                                    Table 1: Most Common Content Categories by States With Written Standards as of July 2004
State    Relationships and/or   Needs of    Safety   Case        Physical   Private      Adjustment      Addressing the        Progress of   Mental health   Educational   Child'          Well- being
         communication          and         of the   planning    health     discussion   ofthe child     child' s concerns                   needs of the                  relationships
                                                                                                                               the child                     needs of                      of the child
         between caseworker     services    child                of the     with child   to the foster   (e.g. , separation,                 child           the child     and/or visits
         and child              to the                           child                   care            discipline, or                                                    with parents,
                                child                                                    placement       problems)                                                         siblings,
                                                                                                                                                                           and other
                                                                                                                                                                           relatives




        OEI. 04- 03. 00351           STATE STANDARDS AND PRACTICES FOR CONTENT OF CASEWORKER VISITS WITH CHILDREN IN FOSTER CARE
                                                                                                   '8'             v,'':   =-1

State I Relationships and/or   Needs of       Safety    Case       Physical    Private      Adjustment      Addressing the        Progress of   Mental health          Child'          Well-being
         communication         and            of the    planning   health      discussion   ofthe child     child' s concerns     the child     needs ofthe            relationships   ofthe child
         between caseworker    services       child                of the      with child   to the foster   (e.g. , separation,                 child                  and/or visits
         and child             to the                              child                    care            discipline, or                                             with parents,
                               child                                                        placement       problems)                                                  siblings,
                                                                                                                                                                       and other
                                                                                                                                                                       relatives




Total                23           23 22                    20          18         17                                                                    13
        Please refer to Appendix A for definitions of each category. For a detailed description of how we categorized State written standards, including the limitations to
        our methodology, refer to page 4.

        Source: Analysis of content standards compiled by OIG.




        OEI- 04. 03. 00351              STATE STANDARDS AND PRACTICES FOR CONTENT OF CASEWORKER VISITS WITH CHILDREN IN FOSTER CARE
                                    Table 2: Less Common Content Categories for States                       With Written Standards as of July 2004
State       Social           Needs of and  Observing       Addressing the Informing    Adequacy of            Supporting the        Child'               Developing a         Visual            Changes in
            and/or           services to the
                                           interactions or foster care    the child of the foster care        child' s values       relationship with    child' s life book   assessment of     household
            emotional        foster care   relationships   provider       upcoming     environment            (e.g. , culture,      foster care                               where the child   composition
            needs ofthe      provider      between child   concerns       events                              religion, identity)   provider or foster                        sleeps
            child                          and foster care                                                                          family
                                           orovider




        OEI. 04. 03. 00351               STATE STANDARDS AND PRACTICES FOR CONTENT OF CASEWORKER VISITS WITH CHILDREN IN FOSTER CARE
                                                            ff.n.8Di(
                                          Observing         Addressing the                                Supporting the         Child'
                                          interactions or   foster care                                   child' s values        relationship with
                                          relationships     provider         upcoming                     (e.g. , culture,       foster care
                                          between child     concerns         events                       religion , identity)   provider or foster
                                          and foster care                                                                        family
                                           rovider



Total            10                                                              5 1                                                     4 1           4 1
        Please refer to Appendix A for definitions of each category. For a detailed description of how we categorized State written standards , including the limitations to
        our methodology, refer to page 4.

        Source: Analysis of content standards compiled by OIG.




        OEI. 04. 03. 00351         STATE STANDARDS AND PRACTICES FOR CONTENT OF CASEWORKER VISITS WITH CHILDREN IN FOSTER CARE
                                                                                                           ..'




                                                                                            Addressing child' s concerns          Relationships and/or
                                                                                            (e.g. , separation , discipline, or   communication between
                                                                                            problems)                             the caseworker and the
                                                                                                                                  child




WY*
Total
         *WY reported implementing State standards for the content of caseworker visits after July 2004.
        Please refer to Appendix A for definitions of each category. For a detailed description of how we categorized State responses, including the limitations to our
        methodology, refer to page 4.

        Source: Analysis of content standards compiled by OIG.




      OEI- 04- 03. 00351           STATE STANDARDS AND PRACTICES FOR CONTENT OF CASEWORKER VISITS WITH CHILDREN IN FOSTER CARE
                 A   P    P E N D            I X ~             C         



            Table 2: Less Common Content Categories Reported by States Without Written Standards as of July 2004
State       Adequacy of the foster care             Child’s relationships and/or visits                    Needs of and services to the child          Social and/or emotional needs of the
            environment                             with parents, siblings, and                                                                        child
                                                    other relatives
MA                         X
MD                                                                           X                                                                                           X
MS
MT                                                                           X                                                                                           X
NC
NM                                                                                                                           X
WI                         X                                                                                                 X
WY*
Total                       2                                    2                                       2                                         2
        *WY reported implementing State standards for the content of caseworker visits after July 2004. 

        Please refer to Appendix A for definitions of each category. For a detailed description of how we categorized State responses, including the limitations to our 

        methodology, refer to page 4. 


        Source: Analysis of content standards compiled by OIG.





        OEI-04-03-00351             S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE
                                                                                                                                                                                              25
  Δ         A C K N O W L E D G M E N T S                                                     




                      This report was prepared under the direction of Ann O’Connor, Regional
                      Inspector General for Evaluation and Inspections in the Atlanta regional
                      office, and Graham Rawsthorn, Assistant Regional Inspector General.
                      Other principal Office of Evaluation and Inspections staff who contributed
                      include:

                      Stacey Bloomer, Co-Team Leader
                      Peggy Daniel, Project Lead

                      Linda Hall, Program Specialist

                      Gerius Patterson, Data and Statistical Analyst

                      Elander Phillips, Program Analyst

                      Elise Stein, Director, Public Health and Human Services

                      Joe Townsel, Co-Team Leader

                      Michala Walker, Program Analyst




OEI-04-03-00351    S TAT E S TA N D A R D S   AND   PRACTICES   FOR   CONTENT   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER
                   CARE                                                                                                              26
